 

In the

Supreme Court of the United States

 

MARK ELDON WILSON, Petitioner

Vv.

UNITED STATES OF AMERICA, Respondent

 

On Petition for Writ of Certiorari to the
United States Court of Appeals

for the Ninth Circuit

 

Certificate Pursuant to Rule 33

 

Pursuant to Rule 33.2, I hereby certify that this petition is less than 40
pages, and therefore complies with the page limit set out in Rule 33. This

brief was prepared in 13-point Century Schoolbook font.

Respectfully submitted,

CUAUHTEMOC ORTEGA
Federal Public Defender

DATED: September 14, 2021 By: Tod VA
JOSHUA D. WEISS*
Deputy Federal Public Defender

Attorneys for Petitioner
*Counsel of Record
